No. 19-123

In the Supreme Court of the United States

SHARONELL FULTON, ET AL.,
Petitioners,
Vv.

CITY OF PHILADELPHIA, ET AL.,
Respondents.

 

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I declare that the BRIEF OF AMICI
CURIAE CURRENT AND FORMER STATE LEGISLATORS IN SUPPORT OF
PETITIONERS being filed in this case contains 6,921 words, excluding parts of the
document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on the 2™ of June, 2020.

  

icker, Counsel of Record
117N. First St., Suite 111

Ann Arbor, MI 48104

(734) 887-9261
